                                                               NATIONAL SCIENCE FOUNDATION
                                                                OFFICE OF INSPECTOR GENERAL
                                                                  OFFICE OF INVESTIGATIONS

                                                        CLOSEOUT MEMORANDUM

  Case Number: AIOll0083                                                                        Page 1 of 1




                 This case will be closed and the subject! and allegation2 at issue wi11 be investigated under a
          previously opened civil/criminal case. 3




              Falsification/fabrication of data and misuse of funds.
          3   Case 110120056.




NSF OIG Fonn 2 (11/02)
